No.

3fa tCIje

Supreme Court of tfje ©rnteb States

GENE RECHTZIGEL,
Petitinnpr

V.

FILED
JAN 2 7 2020

STATE OF MINNESOTA,

OFFICE OF THE CLERK
SUPREME COURT. U.S.

Respondent.

On Petition For A Writ Of Certiorari
To The Minnesota Court Of Appeals

PETITION FOR A WRIT OF CERTIORARI

Gene Rechtzigel
Pro Se
6533 160th Street West
Apple Valley, MN 55124
(612-618-0780)

RECEIVED
JAN 2 9 2020
9iF.pnFM°FC0nRTLu">< I

1

QUESTIONS PRESENTED
I.

Did the Government deprive Petitioner the First
Amendment Right “to petition the Government for
a redress of grievances?”

II. Did the Government deprive Petitioner the Fourth
Amendment Right “to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures?”
r*

**3s

1

III1.“Did the Government deprive Petitioner the Fifth
> •* ^Amendment Right that “No person shall ... be
subject to be twice put in jeopardy of life or limb;
v nof shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, lib­
erty, or property, without due process of law. . . ?”
IV. Did the Government deprive Petitioner the Sixth
Amendment that “In all criminal prosecutions, the
accused shall enjoy the right to a speedy and pub­
lic trial, by an impartial jury of the state and dis­
trict ... to be informed of the nature and cause of
the accusation; to be confronted with the wit­
nesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.”
V.

Did the Government deprive Petitioner the Eighth
Amendment Right to not impose “cruel and unu­
sual punishments inflicted?”

VI. Did the Government deprive Petitioner “of Life,
Liberty, or property, without due process of law . . .
equal protection of the laws?”

11

PARTIES TO THE PROCEEDING
Petitioner Gene Rechtzigel was the Defendant in
the District Court proceedings and Appellant in the
Court of Appeals proceedings. Respondent State of
Minnesota, City of Apple Valley was the prosecuting
authority in the District Court proceedings, and also in
the Court of Appeals Proceedings.

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED.............................

1

PARTIES TO THE PROCEEDING..................

11

OPINIONS BELOW...........................................

1

JURISDICTION..................................................

1

CONSTITUTIONAL PROVISIONS INVOLVED

2

STATEMENT OF THE CASE...........................

4

REASONS FOR GRANTING THE PETITION.... 17
CONCLUSION

37

APPENDIX
State of Minnesota Court of Appeals, Un­
published Opinion, Filed August 12, 2019..... App. 1
State of Minnesota District Court for the County
of Dakota, Findings of Fact, Conclusions of
Law and Order, Filed August 2, 2018
App. 17
State of Minnesota District Court for the County
of Dakota, Amended Order, Filed September
10,2018
App. 26
State of Minnesota District Court for the County
of Dakota, Probation Violation Order, Filed
App. 33
March 9, 2018
State of Minnesota District Court for the County
of Dakota, Order and Memorandum Denying
Defendant’s Motion to Dismiss, Filed Decem­
ber 8, 2017
App. 37

IV

TABLE OF CONTENTS - Continued
Page
State of Minnesota District Court for the County
of Dakota, Order, Filed April 4, 2016............ App. 46
State of Minnesota Court of Appeals, Order,
App. 51
Filed March 8, 2016
State of Minnesota Supreme Court, Order deny­
ing Petition for Rehearing, Filed October 29,
App. 53
2019
State of Minnesota, Register Of Actions, Filed
App. 54
May 5, 2015
State of Minnesota District Court for the County
of Dakota, Stipulation and Order, Filed Feb­
App. 68
ruary 7, 2012

V

TABLE OF AUTHORITIES
Page
Cases
Barber v. Thomas, 130 S. Ct. 2499,177 L. Ed. 2d
1 (2010)...............................................................

22

Flour City Fuel & Transfer Co. v. Young, 150
Minn. 452,185 N.W. 934 (1921)........................

16

North Carolina v. Alford, 400 U.S. 25, 91 S. Ct.
160(1970)..........................................................

20

North Carolina v. Pearce, 395 U.S. 711, 89 S. Ct.
2072, 23 L. Ed. 2d 656 (1969)...........................

14

Olson v. Synergistic Techs. Bus. Sys., Inc., 628
N.W.2d 142 (Minn. 2001)..................................

16

Santobello v. New York, 404 U.S. 257, 92 S. Ct.
495, 30 L. Ed. 2d 427 (1971).............................

20

State v. Fritsche, 402 N.W.2d 197 (Minn. Ct. App.
1987) . .................................................................

20

State v. Haas, 280 Minn. 197, 159 N.W.2d 118
(1968)..................................................................

22

State v. Jordan, 426 N.W.2d 495 (Minn. App.
1988) . .................................................................
State v. Otterstad, 734 N.W.2d 642 (Minn. 2007)....
State v. Peck, 773 N.W.2d 768 (Minn. 2009)........

13
22
20

State v. Underdahl, 767 N.W.2d 67 (Minn. 2009).... 20,23
State v. Walsh, 43 Minn. 444, 45 N.W. 721 (1890)
State v. Zeimet, 696 N.W.2d 791 (Minn. 2005)....

22
22

VI

TABLE OF AUTHORITIES - Continued
Page
Constitutional Provisions
Const. Amend. I..................

2

Const. Amend. IV...............

2

Const. Amend. V.................

2,14, 24, 25

Const. Amend. VI...............

3

Const. Amend. VIII............

3

Const. Amend. XTV.............

3, 7,31

Minn. Const. Art. I, Sec. 2...

3

Minn. Const. Art. I, Sec. 4...

13

Minn. Const. Art. I, Sec. 7...,

4,13

Minn. Const. Art. I, Sec. 8...

4

Statutes
Minnesota Statute 645.17.......................

4,21

Minnesota Statute 590.01-590.11..........

10

Minn. Stat. Ann. 645.16...........................

20

Minnesota Statute 326B.118 Subd. 2. (c)

30

Minnesota Statute 326B.121 Subd. 1. (c)

28, 35, 37

1
OPINIONS BELOW
The Decree ofA18-1449, A18-1615 entered on August
12,2019, by the Minnesota Court of Appeals. App. 1-16
The Decree of Trial Court August 2, 2018, App. 17
The Decree of Court Order September 10th, 2018,
App. 26-36
The Decree of Court Order for Motion to Dismiss
of December 8th, 2017, App. 37-45
The Decree of Court Order of April 4th, 2016, App.
46-50
The Decree of Appellate Court March 8th, 2016,
App. 51-52
The Decree of Minnesota Supreme Court of Octo­
ber 29th, 2019, App. 53
The Decree of A18-1449, A18-1615 entered, on Januaiy 29,2019, by the State of Minnesota Supreme Court

JURISDICTION
The judgment/order of the Minnesota Supreme
Court was entered on October 29, 2019, (the entry
date) (App. 53) from which a timely 90 days for peti­
tioning a Review on Certiorari is by January 27, 2020.
The jurisdiction of this Court is invoked under 28
U.S.C. § 1257(a).

2

CONSTITUTIONAL AND
STATUTORY PROVISIONS
Amendment I
Congress shall make no law respecting an estab­
lishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble,
and to petition the Government for a redress of griev­
ances.
Amendment IV
The right of the people to be secure in their per­
sons, houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, sup­
ported by Oath or affirmation, and particularly de­
scribing the place to be searched, and the persons or
things to be seized.
Amendment V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in ac­
tual service in time of War or public danger; nor shall
any person be subject for the same offence to be twice
put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself,
nor be deprived of life liberty or property without due
process of law; nor shall private property be taken for
public use, without just compensation.

3

Amendment VI
In all criminal prosecutions, the accused shall en­
joy the right to a speedy and public trial, by an impar­
tial jury of the state and district... to be informed of
the nature and cause of the accusation; to be con­
fronted with the witnesses against him; to have com­
pulsory process for obtaining witnesses in his favor,
and to have the assistance of counsel for his defense.
Amendment VIII
Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments in­
flicted.
Amendment XIV
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law, which shall abridge the privileges or immuni­
ties of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Minnesota Constitution, Article I, Bill of Rights,
Sec. 4 Trial by Jury says that, “The right of trial by jury
shall remain inviolate, and shall extend to all cases at
law without regard to the amount in controversy.” Also
in Sec. 2 Rights and Privileges, “No member of this
state shall be disfranchised or deprived of any of the
rights or privileges secured to any citizen thereof,

4
unless by the law of the land or the judgment of his
peers. . .
Minnesota Constitution, Article I, Sec, 8 Redress
of Injuries or Wrongs says that, “Every person is enti­
tled to a certain remedy in the laws for all injuries or
wrongs which he may receive to his person, property,
or character, and to obtain justice freely and without
purchase, completely and without denial, promptly
and without delay, conformable to the laws.”
Minnesota Constitution, Article I, Sec. 7, says that,
“No person shall... be deprived of life, liberty, or prop­
erty without due process of law.”
Minnesota Statute 645.17 Presumptions In Ascer­
taining Legislative Intent says that, “(3) the legisla­
ture does not intend to violate the Constitution of the
United States or of this state.”

STATEMENT OF THE CASE
This case shows the extreme extent government
oppression grows into, when left undisturbed, un­
checked, in its usurping of the peoples rights to life,
liberty, property, and equal protection of the laws.
This case is proof that when government is al­
lowed to condemn, seizure of property without public
need of all being “taken,” and not being required to give
“just compensation” through trial by jury for the prop­
erty “taken” (18-1373), that government will then grow
into a dreadful monster, of criminalizing the freedoms

5
and rights to life, liberty, property, and the pursuit of
happiness; which is the case of this instant appeal to
the United States Supreme Court, to seek relief and
justice from governmental usurpations taking the
place of man’s God given rights and violating the
United States Bill of Rights, including the First
Amendment of the United States Constitution, which
in this instant case government has criminalized Lib­
erty, Due Process, and Equal Protection.
This case shows how Petitioner was falsely ac­
cused, maliciously prosecuted, unjustly sentenced, and
how cruel and unusual punishment was inflicted.
This case shows that the Dakota County Court
rubber-stamped whatever the prosecutor of the City of
Apple Valley, Minnesota wanted with no respect shown
for Petitioner’s Rights, Due Process, and Equal Protec­
tion under the United States Constitution, Minnesota
Constitution, Minnesota Statutes, and Minnesota
Rules.
This case shows no evidence of a Minnesota Stat­
ute or Minnesota Rule being violated by Petitioner.
When Petitioner asked the court for the Statute or
Rule that was violated, the trial court asked the pros­
ecutor who had no response, and said they did not
know. The prosecutor and the Dakota County Court
later created false evidence with a Rule having no
foundation that can be legally and constitutionally ap­
plied.

6

Petitioner has a family farm that has been farmed
in the family for over 70 years, and is zoned agricul­
tural.
Petitioner had plowed the ground that spring, al­
ways having farm machinery, corn stored in the bin,
hay stored in the bam, which land and building is the
headquarters of all farm operations and farm land
management.
Petitioner that previous winter shared with the
city the plan and bought new farm fencing to keep tres­
passers out, keep animals in, to serve also as a privacy
fence and noise barrier fence, but the main purpose
was be the final safety and security measure for the
farm animals, farm operation, and the general public!
Petitioner planned and bought all the fencing ma­
terials and had all of it delivered into the newest and
largest barn to be installed no later than the end of
spring, so the grounds can be disked and planted with
corn.
Respondent, City of Apple Valley, had no objection
to the fence until 1/3 of the fence was installed, which
Respondent objected for pure harassment purposes
only, a farm fence that looked very beautiful in appear­
ance (for it had a solid beautiful wood grain) and pro­
vided for the public welfare, safety, and security where
upon the City of Apple Valley should be well pleased by
Petitioner and praising Petitioner.
Petitioner’s farm fence is exempt from all Minne­
sota Statutes and all Minnesota Rules because it is

7
connected to and is an extension of the farm buildings,
farm operation, for farm animal safety, security, and
public welfare, which pleases the Statutes and Rules
of the State of Minnesota entirely, fully, and is exempt
from all Statutes and Rules for being built on private
farm land for farming purposes.
Respondent, intentionally for harassment, Uncon­
stitutionally and maliciously prosecuted Petitioner
endlessly for years with no real evidence, but with false
charges, bias hate, untruthful witnesses, framed Peti­
tioner repeatedly, unlawfully, until causing Petitioner’s
lawyer to run to Africa and hide from the malicious
harassment the prosecutor was steam-rolling my law­
yer and Petitioner with; abusive (North Korea govern­
ment) types of abuse, behavioral types of injustice and
abuse having the ingredients of reckless lawlessness
forming frame-ups that denies Petitioner’s Life, Lib­
erty, Property, the pursuit of happiness, denying U.S.
Constitutional Rights and God given Rights, which
this instant case will show and prove out with careful
examination.
Petitioner in light of the equal protection clause of
the 14th amendment of the United States Constitu­
tion, is every other farmer in the state of Minnesota
being held to the same legal standard alleged by Re­
spondent under the Minnesota Building Code? Peti­
tioner is a farmer, who keeps pigs, grain, hay, feed, and
farm machinery always on the property in question
since the 1950s. Respondent has not met its burden of
proof beyond a shadow of a doubt of what ordinance,
building code rule, or statutory law Petitioner has

8
allegedly violated? Petitioner still does not know of any
building code rule that has been violated by Petitioner.
Even Petitioner’s own engineer repeatedly stated to
Petitioner and Petitioner’s employees that he cannot
furnish any statute, building code rule, or ordinance
that Petitioner violated, because he doesn’t know of
one, and stated repeatedly “it is all politics”.
On September 7, 2016, the City put fraud upon the
court by denying that Petitioner “fully complied within
10 days of the April 6, 2016 court order” by “paying a
total of $580 in fees, apply for a permit, deliver a certi­
fied land survey with a drawing, and allow city to in­
spect”
Petitioner was framed by Prosecuting Agency of
the City of Apple Valley, as Petitioner’s Attorney and
Petitioner was never served with Summons (Doc. 31,
from Register of Actions (App. 54-67, Also App. 31),
Case No. 19AV-CR-15-10738) and was denied the op­
portunity to appear on October 6, 2016 by Prosecuting
Agency’s refusal to serve Summons and notice on Peti­
tioner’s Attorney of the October 6, 2016 hearing, of
which there is no affidavit of service in this case file,
proving that Petitioner was falsely and maliciously ac­
cused of not appearing October 6, 2016, of which, there
never was a hearing on that clay, according to court re­
porter saying so, that there is no record of a transcript
on that day of a hearing, for there was no hearing held.
Petitioner states that Criminal Procedure Rule
3.01 states “the Court MUST issue a summons”
which, according to the Court Record, was never issued

9
and no affidavit of service was submitted showing oth­
erwise.
Petitioner says the District Court issued a fraudu­
lent warrant (Doc. 34, from Register of Actions (App.
54-67, also App. 31, and App. 34), Case No, 19AV-CR15-10738), the false charge of not attending the Octo­
ber 6,2016 hearing that was never held, and Petitioner
and Petitioner’s Attorney was never served notice of
hearing, this malicious framing took place by Prosecut­
ing Agency, fraud was put upon the court, to defraud
Petitioner of innocence of having faithfully satisfied
the plea bargain agreement. Minn. Criminal Proce­
dure Rule 3.01 states, “If a defendant fails to appear in
response to a summons, a warrant must issue” but in
this instant case defendant was never issued a sum­
mons which gives the prosecuting agency no founda­
tion, no legal authority to issue a warrant, because
prosecuting agency failed its legal duty to issue a sum­
mons which is required by Criminal Procedure Rule
3.01.
Petitioner states he was discharged from proba­
tion on April 23, 2017 “Discharge from Probation”
(Doc. 60, from Register of Actions (App. 54-67, App. 27,
App. 31), Case No. 19AV-CR-15-10738) The prosecut­
ing agency of Apple Valley and the trial court abused
it’s discretion by not dismissing the charges, by not ter­
minating the hearings and case, for lack ofjurisdiction.
Petitioner deserves to have the $300.00 bail (App.
54, Doc. 40) returned back to Petitioner for lack of

10
jurisdiction, which the trial court and Court of Appeals
erred in not granting.
Petitioner believes that the Minnesota Court of
Appeals misstated that Petitioner made an Ex Parte
motion in September of 2017, “to dismiss the charges
to which he pleaded guilty” on page 4 of their opinion
(A18-1449, A18-1615) filed on August 12,2019 (App. 116) which is interpreted wrong because Petitioner
clearly asked that the warrant be dismissed as notice
of hearing and summons was never served on Defend­
ant or Defendant’s Attorney.
Petitioner states the Dakota County Attorney and
the State of Minnesota Attorney General failed their
Minnesota Statutes 590.01-590.11 Duties as required
under Chapter 590 to give the Postconviction Relief
Statute standing to an Amended and Timely Petition
served on October 31, 2018, for Post-conviction Relief,
for open court hearings on the Petition as required by
Minn. 590.04 of the County Attorney and Minnesota
State Attorneys Office.
Respondent and the district court entrapped Peti­
tioner into an extension of probation by not showing in
the record (index 60, See App. 64) that probating had
been terminated before the prosecutor and trial court
extended it after the December 2017 hearing. Which
caused Petitioner to be denied the opportunity to object
which violated Petitioner’s procedural due process
rights. Probation was truly terminated beforehand,
while Petitioner was led to believe the trial court had

11
jurisdiction to extend probation but in reality the trial
court had no jurisdiction to extend probation.
Respondent and the trial court committed Double
Jeopardy against Petitioner, because the court had no
Jurisdiction, not from the legislature nor from the plea
Agreement, nor from the conditions of the April 4,2016
(App. 46-50) sentencing Order on a stay of imposition
pursuant to M.S. 609.135, to require Petitioner to “ob­
tain a stamped drawing from a licensed engineer
within 30 days of the date of this order” and this abuse
of discretion by the trial court violated the original plea
agreement that was agreed to on April 4th, 2016.
Petitioner claims the record shows that the court
had no jurisdiction to require disposition!resentencing
hearing on March 9th, 2018. (See Doc. 66 from Register
ofActions” Case No. 19AV-CR-15-10738, App. 54-67)
Respondent and the court had no jurisdiction to
extend Petitioner’s probation to July 26th, 2018 (App.
27), because Petitioner was discharged from probation
on April 23rd, 2017 (Index #60, App. 64)
Respondent (Prosecutor) violated the Minnesota
Constitution Art. 1, Sec. 1, 2, and 8 as Petitioner has
indeed been denied his right to be free from bias, per­
sonal interest, conflict of interest and unlawfulness
prosecution under Minnesota Constitution Article I,
Sec. 1, 2, and 8, for Petitioner filed many motions to
dismiss throughout the record, and recited the tran­
scripts of oral argument throughout Petitioner’s Brief
many times which is in the record.

12
Petitioner’s motions to dismiss are contained in
the record (See App. 37-45, Document Index #10,
Amended Motions of Petitioner stating in detail the
Proof of the Family Farm being exempt from the build­
ing code in support of a Motion to Dismiss for lack of
jurisdiction over the subject matter, Motion to Dismiss
for lack of Jurisdiction over the person because land is
owned by Trust also; Motion to Dismiss for lack of
probable cause as land in question is zoned agricul­
tural in Exhibit A of Doc.#10; Family Farm growing
farm crops in Exhibit Bl, B2, C of Doc. Index #10; Stop
Work Order was illegally Written in Exhibit D of Doc.
Index #10; City has no probable cause in Exhibit E, Ex­
hibit F, Exhibit G, Exhibit H of Doc Index #10) (See
ADD 6 of Reply Brief). See also Motions to Dismiss
filed September 28,2017 (Doc. Index #41), filed October
18, 2017 (Doc. Index #54) filed October 19, 2017 (Doc.
Index #57), filed January 25, 2018 (Doc. Index #64)
filed June 7, 2018 (Doc. Index #74)
Petitioner claims the trial court under Judge
Knutson is Bias, with personal interest because on
February 6, 2012 Judge David Knutson approved a
fraudulent stipulation that was not signed by Gene
Rechtzigel, nor did Gene Rechtzigel have knowledge of
it being signed fraudulently by a fired Attorney Erick
Kaardal who committed a crime of fraud in signing it
without Petitioner’s approval and knowledge (See App.
68-77)
Respondent has offered no real facts to prove out
his case, as the state has the burden of proof to prove
that a crime was committed by Petitioner. The State

13
has only made conclusionary statements which shows
Respondent’s case has no merit.
Petitioner is being denied rights under Minnesota
Constitution Art. 1, Sec. 7. that grant Petitioner the
right to not “be held to answer for a criminal offense
without due process of law, and no person shall be put
twice in jeopardy ofpunishment for the same offense. . .
nor be deprived of life, liberty, or property without due
process of law.”
Petitioner is being denied rights Under Minnesota
Constitution art. 1, section 4. For Petitioner was not
given a final judgment by the Trial Court until August
2nd, 2018, (App. 17) and September 10,2018, (App. 2636) which is required by Rule 26.01, subdivision 3 or 4,
for Petitioner to be able to file an Appeal with the Min­
nesota Appellate court. (State v. Jordan, 426 N.W.2d
495, 496 (Minn. App. 1988) said, “a criminal defendant
has a right to appeal any conviction, and to raise pre­
trial issues (See appendix 51-52. original order) in that
appeal: therefore, pretrial appellate review is rarely
granted to a criminal defendant”) and (See Appendix
51-52 Order A16-0253, March 8, 2016). Petitioner has
a right to appeal all orders because the final Judgment
was not given until August 2nd, 2018 (App. 17) and
September 10,2018 (App. 26-36). Petitioner has a Con­
stitutional right and a March 8th, 2016 (App. 51-52)
Minnesota Appellant court order A16-0253 right to ap­
peal the entirety of this instant case.
Petitioner was compelled by the Trial Courts order
of March 9th, 2018 by Judge Knutson ordering

14
Petitioner to be a witness against himself in Violation
of the Minnesota Constitution art. 1 section 7. Re­
spondent (City of Apple Valley) had the trial court force
Petitioner with a trial court order to hire a licensed en­
gineer whom the City tampered with and prejudiced
Petitioner. Respondent and trial court forced Petitioner
to be a witness against himself, and the engineer was
not impartial but was made partial to the City by com­
munications between the two which indeed did violate
Petitioner’s Constitutional right to not be forced to be a
witness against himself. Respondent does not have a
violation of wind load in the Minnesota Building Code
to charge Petitioner with so Respondent and the Court
created partiality by tampering with the engineer to
produce a report that would cause Petitioner to be a wit­
ness against himself which is in violation of Minnesota
Constitution Article 1 and 7, which states “No person
shall be held to answer for a criminal offense without
due process of law, and no person shall be put twice in
jeopardy ofpunishment for the same offense, nor be cam
el led in an criminal case to be a witness against him­
self or be deprived of life, liberty, or property without
due process of law” “The Double Jeopardy Clause of the
United States Constitution provides that no person
shall be subject for the same offence to be twice put in
jeopardy of life or limb.” U.S. Const, amend. V. The
Clause offers criminal defendants protection from . . .
‘a second prosecution for the same offense after convic­
tion’; and (3) ‘Multiple punishments for the same of­
fense.’ North Carolina v. Pearce, 395 U.S. 711, 717, 89
S. Ct. 2072, 23 L. Ed. 2d 656 (1969).” “The Double

15
Jeopardy Clause applies to the states through the Due
Process Clause of the Fourteenth Amendment.”
Petitioner under the U.S. Equal Protection Clause
and Due Process Clauses of the Minnesota Constitu­
tion was not treated with Equal Protection as other
farmers axe in the state of Minnesota pertaining to
having an 8 foot farm fence.
Petitioner was threatened with an Unlawful Tak­
ing of the farm fence to be sentenced for 20 days in jail
(App. 30), unless fence is cut down and destroyed from
original condition. Petitioner had no choice but to cut 1
to 2 feet off his farm fence when faced with the reality
that he either could cut it down, or go to jail; with no
other alternative.
The trial court erred in allowing the City to dictate
a second punishment to the trial court what Peti­
tioner’s punishment should be; after the fact that Peti­
tioner was already punished with a fine, and complied
with every requirement agreed upon at the original plea
agreement. Petitioner was forced at great cost to have
approximately 1 foot of the farm fence removed, when
the proper remedy is dismissal of this case.
The Court and Respondent are treating Petitioner’s
farm fence, which is an extension of our farm’s barn,
and farm buildings, as if they have done “a taking” ac­
cording to the Courts own confession and wording, “I’m
looking at ordering the city to take the fence down, so
we’re done arguing the Constitutionality, the interpre­
tation of the statute whatever else.” As stated by trial

16
court judge Knutson on Lines 9-18, page 4, March 9th,
2018 hearing trial court transcript.
Petitioner was subject to and threatened with
Cruel and Unusual Punishment, The Minnesota Con­
stitution Articles 1 and 7 and the U.S. Equal Protection
Clause protects Petitioner from the injustice of being
punished with 20 days jail time while other people of
the same violation receive only a fine plus surcharges
of $238.00 total according to the Minnesota Rules.
Petitioner should have been allowed to withdraw
his plea and have a Trial by Jury after the state vio­
lated the plea agreement and entrapped Petitioner by
purposely not sending a summons to Petitioner’s attor­
ney, for Petitioner was denied by the State the oppor­
tunity to show up at the October hearing, Case law says,
“But we exhibit a “watchful jealousy” of any “impair­
ment of the right of a free and inviolate jury trial.”
Flour City Fuel & Transfer Co. v. Young, 150 Minn. 452,
458, 185, N.W. 934, 937 (1921) “A law is unconstitu­
tional if it renders the jury-trial right ‘so burdened with
conditions that it is not a jury trial, such as the Consti­
tution guarantees.’ Id. at 454, 185, N.V. at 935.” “The
jury trial right exists for any ‘type of action’ for which a
jury trial was provided when the Minnesota Constitu­
tion was adopted in 1857. Olson v. Synergistic Techs.
Bus. Sys., Inc., 628 N.W.2d 142,149 (Minn. 2001).”

17
REASONS FOR GRANTING THE PETITION
I.

Did the Government deprive Petitioner the
First Amendment Right “to petition the Gov­
ernment for a redress of grievances?” Yes,
probation is Unconstitutional when the prosecutor
does not follow through with the original proba­
tion agreement and robs Petitioner of the United
States Due Process Trial by Jury. Petitioner’s brief
appropriately raises issues from a number of prior
hearings dating back farther than his alleged con­
viction which he pled not guilty through a coerced
Afford plea which he indeed was told would be no
admission of guilty by doing this type of a plea bar­
gain; of which the prosecuting authority reneged
on, did not honor the plea bargain, but broke it ma­
liciously.
Petitioner is entitled to a formal complaint on
the new wind load charge that was never charged
out in a court of law with a charging document and
given an arraignment hearing to enter a plea, but
as the record shows Petitioner was denied Due
Process, and struck with Double Jeopardy by ex­
tending probation to include and cover new
charges without being given the right of knowing
what law was violated through the use of a formal
complaint.
Petitioner’s Alford Plea on April 4, 2016 (App.
46-50) was induced by promises and threats,
which deprive it of its character as a voluntary act.
Petitioner fully complied with the Plea Bar­
gain Agreement within 10 days of the April 4,2016
Order (App. 46-50).

18
Respondent instead of vacating the April 4,
2016 (App. 46-50) sentence as promised, did the
opposite by fraudulently “Vacated the Stay and Is­
sued a Summons alleging that the Defendant
failed to submit the land survey/drawing to the
city within sixty days of April 4,2016 (App. 46-50)
as required by the terms of his probation” (quote
taken from second paragraph on page 3 of the
Court Order dated December 8, 2017 (App. 37-45)
of Judge David L. Knutson, Judge of District Court
of Dakota County) which is an act of putting fraud
upon the court by Respondent, because Petitioner
did submit a certified land survey and a drawing
of the fence to George Dorn along with the cash
payment paid-in-full for the permit on April 13,
2016 as per the written receipt #B 61948.
Respondent and trial court putting a farmer
in Jail for 20 days because a farm fence is one foot
taller than what the City of Apple Valley likes is
not only Unconstitutional but is maliciously ap­
plying a building code that a farm operation is ex­
empt from, by a Minnesota Statutory exemption,
by a Minnesota Rule exemption, and exempt be­
cause building code does not even apply.
The charges and prosecution, of 19AV-CR-1510738, is without merit and frivolous because the
Respondent (City ofApple Valley) is unable to show
cause how Defendant is in violation of the code or
any other laws or ordinances of this jurisdiction.
Respondent has the burden of proof to prove up
the specific law or ordinance that the current fence
of Petitioner is in violation of and needs a permit
to correct this alleged violation that Respondent
keeps alleging but is in failure of providing proof

19
of any violation according to the code, law, or an
ordinance. (Note: At a hearing, the Court asked
the Prosecutor by what code the fence was in vio­
lation of and the Prosecutor could not give the
court a code violation and show how Defendant is
not complying with the code, but instead changed
the topic.) Whether an 8 foot farm fence that is
providing greater security, safety, privacy to both
farm animals and to the public is affecting public
health or general safety for being 8 feet tall instead
of 7 feet tall is unproven by Respondent and sets
the alleged violation as frivolous and meritless.
Respondent’s Code is for building safety, is
called “Department of Building Safety” (the intent
and purpose of the code doesn’t cover a farm fence
for farm animals) and the wind loads that the city
is using under 1303.2200 - “SIMPLIFIED WIND
LOADS” Subpart 1., only applies an enclosed
building (“B. In order to utilize wind loads from
this part, the building shall meet the following re­
quirements) as under B., (3) “enclosed building” as
does Subpart 2. “Simplified design wind pres­
sures” of Horizontal and Vertical Pressure Exp B
25 psf. The wind loads in the code is not applicable
for a farm security, privacy, sound reduction fence
as defendant’s fence is for the farm and the ani­
mals of the farm. Even the strict “Capitol area zon­
ing and design” area does not use wind loads
requirements on it’s visual screens fences over 6
feet as stated under 2400.2630, A., A., (4). Hence,
the charges and prosecution of Respondent (City
of Apple Valley) should be dismissed by the court.
Petitioner did not plead guilty, but as part of
a plea bargain pled an Alford plea (Alford plea

20

“1972, A guilty plea that a defendant enters as
part of a plea bargain without admitting guilt,
North Carolina v. Alford, 400 U.S. 25,91 S. Ct. 160
(1970)).
The extension should not have been 6 months,
but only 90 days as “An extension may not make
the probationary period longer that the maximum
statutory sentence, (State v. Fritsche, 402 N.W.2d
197 (Minn. Ct. App. 1987).”
Minn. R. Crim. R 19:18 says, “If the prosecu­
tion fails to honor a commitment or duty that is
part of a plea agreement, the defendant should be
allowed either to withdraw his plea or to obtain
specific performance, depending upon the circum­
stances. (Santobello v. New York, 404 U.S. 257, 92
S. Ct. 495,30 L. Ed. 2d 427 (1971) (it makes no dif­
ference that the judge claims the error did not in­
fluence the sentencing decision; prosecutor failed
to make a promised recommendation).
Ambiguity: Thus the threshold issue in the analy­
sis is whether the statute’s language is ambigu­
ous. (State v. Peck, 773 N.W.2d 768, 772 [Minn.
2009]). If not, then “construction is neither neces­
sary nor permitted.” A statute or word or phrase is
“ambiguous” if it is subject to “more than one rea­
sonable interpretation.” The same principle ap­
plies to construction of rules of criminal procedure.
CState v. Underdahl, 767 N.W.2d 677, 682 [Minn.
2009])
Minn. Stat. Ann. 645.16 provides that the “object
of all interpretation and construction of laws is to
ascertain and effectuate the intention of the legis­
lature.” When the language is not clear, legislative

21
intent may be found by considering, among other
things:
(1) The occasion and necessity for the law;
(2) The circumstances under which it was en­
acted;
(3) The mischief to be remedied;
(4) The object to be attained;
(5) The former law, if any, including other laws
upon the same or similar subjects;
(6) The consequences of a particular interpreta­
tion;
(7) The contemporaneous legislative history; and
Legislative and administrative interpretation of
the statute.
In addition, certain presumptions are pre­
scribed for determining the intention of the
legislature. Minn. Stat. Ann. 645.17 creates pre­
sumptions that:
(1) The legislature does not intend a result that
is absurd, impossible of execution, or unreasona­
ble;
(2) The legislature intends the entire statute to
be effective and certain;
(3) The legislature does not intend to violate the
constitution of the United States or of this state;
(4) When a court of last resort has construed the
language of a law, the legislature in subsequent

22

laws on the same subject matter intends the same
construction to be placed upon such language; and
(5) The legislature intends to favor the public in­
terest as against any private interest. “Municipal
ordinances are to be construed according to the
same rules as statutes. (State v. Otterstad, 734
N.W.2d 642, 647 [Minn. 2007]).
It is important that the principle of statutory con­
struction in criminal cases, derived ultimately from
the doctrine of due process, is popularly known as the
“rule of lenity [leniency],” to resolve ambiguity in favor
of being lenient to defendant. It was well-formulated
in an early case which provided that no statute may
create a crime “unless the intention of the legislature
to effect that result is apparent.” And if it remains
doubtful whether a statute was intended to embrace
certain actions “such acts or conduct must be regarded
as not within the statute.” (State v. Walsh, 43 Minn.
444, 445, 45 N.W. 721 (1890).
The rule requires that wherever there is ambigu­
ity about the scope of a criminal statute the court must
“resolve all reasonable doubts about the legislative in­
tent in favor of the defendant,’ and apply “the rule of
strict construction” to all penal statutes. [State u. Haas,
280 Minn. 197, 200,159 N.W.2d 118,120 (1968).
8) The rule applies to all criminal laws, not only
those creating offenses. [State v. Zeimet, 696 N.W.2d
791, 794 (Minn. 2005); Barber v. Thomas, 130 S. Ct.
2499,177 L. Ed. 2d 1 (2010).

23

The rule applies to sentencing statutes. (Mil­
ler v. State, above; State v. XJnderdahl, 767 N.W.2d
677 Minn. 2009).
Respondent violated the First Amendment of
the U.S. Constitution Right “to petition the govern­
ment for a redress of grievances” by denying Peti­
tioner the Right of having a Trial by Jury,
concerning the lack of subject matter jurisdiction
of Respondent and the protective right of having
all criminal matters given a full and fair trial by
jury.
II. Did the Government deprive Petitioner the
Fourth Amendment Right “to be secure in
their persons, houses, papers, and effects,
against unreasonable searches and sei­
zures?” Yes, Respondent violated Petitioner’s U.S.
Fourth Amendment Right that “no warrants shall
issue, but upon probable cause” (Respondent did
not serve the summons and did not notify Peti­
tioner’s Attorney Lucas Spaeth of the 10/06/2016
hearing and Respondent did not have a hearing
that day, no transcript, no record of probable
cause).
III. Did the Government deprive Petitioner the
Fifth Amendment Right that “No person
shall ... be subject to be twice put in jeop­
ardy of life or limb; nor shall be compelled in
any criminal case to be a witness against
himself, nor be deprived of life, liberty, or
property, without due process of law....”

24
Yes, Respondent violated Petitioner’s U.S. Fifth
Amendment Right that “No person shall be held to
answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a grand
jury. ...” of which Petitioner was denied. Peti­
tioner was denied an indictment of a grand jury
concerning an infamous crime that Respondent is
allegedly charging Petitioner without the protec­
tion of a grand jury making the charging of a crime
that Respondent claims deserves 20 days of jail
confinement, with no probable cause shown what
criminal statute was violated; no record the trial
court had a hearing on 10/06/2018 and no record
of having a summons served on Petitioner’s Attor­
ney, and no record of a statutory crime being com­
mitted by Petitioner.
Respondent put Petitioner in jeopardy twice
by alleging the same offense twice and Unconsti­
tutionally compelled Petitioner to be a witness
against himself in this criminal case by forcing
Petitioner to attend about 10 court hearings, giv­
ing out about 10 court orders to require and force
Petitioner to be a “witness against himself” in vi­
olation of the U.S. Fifth Amendment when Re­
spondent has the trial court force Petitioner to get
a permit for a fence that has been established for
years and then forcing Petitioner to hire an engi­
neer who is talking to Respondent on what the un­
reasonable (150 miles per hour) wind load
requirements should be in the engineer report to
force Petitioner to be a witness against himself on
an entrapment engineer report with no legal foun­
dation of applicable rules either from the Minne­
sota Building Code nor from the Minnesota
Statutes. Respondent created second false charge,

25
double jeopardy charge, by forcing Petitioner to
comply with an entrapment prosecution of a wind
load violation out of thin air with no citations from
criminal statutes nor from criminal Building Code
Rules that do not even exist, from which Petitioner
is sentenced for 20 days for being a political pris­
oner of the State of Minnesota, and Petitioner was
not only denied “life, liberty, or property” but Peti­
tioner is being denied due process of having an “in­
dictment of a grand jury” for an alleged “infamous
crime” with a sentence 20 days ofjail time, for do­
ing nothing wrong under the Minnesota Building
Code and Minnesota Statutes as having a family
farm with farm animals & crops, and farm build­
ings & farm fence that is not under the Minnesota
Building Code and Minnesota Statutes. It Appears
Petitioner is being persecuted for being a Chris­
tian, Republican, and for being a Farmer, and is
unlawfully being charged for a crime that does not
exist which is a direct U.S. Constitutional violation
of the 5th and 14th Amendments of the United
States Constitution for Respondent is twice put­
ting Petitioner into jeopardy, violating the U.S.
Fifth Amendment.
Respondent is compelling Petitioner to be a
witness against himself on false charges, violating
the U.S. Fifth Amendment.
Respondent is depriving Petitioner of life lib­
erty or property, violating the U.S. Fifth Amend­
ment.
Respondent is depriving Petitioner Due Pro­
cess of law under violating the U.S. Fifth Amend­
ment.

26

Respondent is taking Petitioner’s private
property (agricultural farm fence) for public use,
without just compensation.
IV. Did the Government deprive Petitioner the
Sixth Amendment that “In all criminal pros­
ecutions, the accused shall enjoy the right to
a speedy and public trial, by an impartial
jury of the state and district ... to be in­
formed of the nature and cause of the accu­
sation; to be confronted with the witnesses
against him; to have compulsory process for
obtaining witnesses in his favor, and to have
the assistance of counsel for his defense.”
Yes, Petitioner wanted a trial by impartial jury,
but Attorney Spaeth and Ms. Cassellius demanded
that Petitioner plead the Alford plea (admitting no
guilt) and pay a fine only. “And apparently they are
looking for a plea and a fine and you basically go
on your way” Lines 10-12, page 8, April 4, 2016
Hearing) (App. 46-50)
Petitioner was promised No Jail time, pay
only a fine and you basically go on your way. “With
respect to the statement that - that the state is ask­
ing for the maximum, we’re not asking for any jail
time. We could ask for 90 days in jail. We’re not ask­
ing for any jail time.” (lines 15-18, page 7, April 4,
2016 Hearing) (App. 46-50)
Petitioner understood the Alford plea to be
admitting no guilt, but maintaining innocent.
“Alford” line 15, page 10, and “The Alford plea.”
line 13, page 16, April 4, 2016 Hearing) (App. 4650)

27
Ms. Cassellius. the State, did not know
what the applicable code is? “THE COURT:
Do we know what the applicable code is? ...
MS. Cassellius: I don’t know.” (lines 9.10.13.
page 17. April 4. 2016 Hearing)
Petitioner is being sentenced of a crime with­
out Ms. Cassellius coming forth with any proof
that there was a crime committed, without proof
of a code violation, without proving criminal in­
tent, and without knowing and meeting the states
burden of proof. “THE COURT: Do we know what
the applicable code is? Do you know - do you have
an expectation that the fence would comply with
the code or not comply with the code? MS. CAS­
SELLIUS: 1 don’t know. His attorney represented
that he’s pretty certain it’s going to comply with
code. I don’t know. 1 know it looks solid. I don’t
know. MR. SPAETH: The fence was built to code.
He had it professionally built with four-foot foot­
ings and eight foot high, so it does meet the wind
resistance test and there’s - there wouldn’t be a
problem with passing inspection. So ... ” (lines 921, page 17, April 4, 2016 Hearing) (App. 46-50)
Petitioner’s use of the Alford Plea would con­
ditional stand ‘THE DEFENDANT: “As long as and, of course, as long as the specs are not arbitrar­
ily made very burdensome, I’ll use that word. THE
COURT: Okay.” (lines 3-6, page 18, April 4, 2016
Hearing) (App. 46-50)

28

V.

Did the Government deprive Petitioner the
Eighth Amendment Right to not impose
“cruel and unusual punishments inflicted?”
Yes, The City of Apple Valley and the trial court
imposed cruel and unusual punishments of inflict­
ing 20 days jail time for removing an “unsafe con­
dition” and the Minnesota State Commercial
Building Code does not reach (Minnesota Statutes
326B.121, Subdivision 1. (c) The State Building
Code does not apply to agricultural buildings, an
agricultural fence, because it is under agricultural
buildings.
a.

The City of Apple Valley forcing Petitioner to
cut down the beautiful expensive $40,000
thousand agricultural fence or go to jail for 20
days, which is cruel unusual punishment for
removing an unsafe condition.

VI. Did the Government deprive Petitioner “of
Life, Liberty, or property, without due pro­
cess of law ... equal protection of the laws?”
Yes, The trial court erred in allowing the prosecu­
tor to add additional terms to the plea agreement
far beyond what was agreed upon during the plea
proceedings. At the hearing in front of Judge
Knutson, on January 25th, 2018, the court stated
“THE COURT: But you had ten days to do it. THE
DEFENDANT: I Know. On the ninth day when we
did this, I objected to that writing being on there
immediately. So today Tm no different than on the
day that this was written out. April 13th - THE
COURT: Well, Mr. Rechtzigel, they’re not going they can’t add any additional terms to my sentence
in a receipt” (lines 2-9, page 12, January 25,2018),

29
and yet that is precisely what has occurred. The
original order of Judge Knutson on April 4th, 2016,
(App. 46-50) was very clear in stating each and
every term that was discussed and agreed upon by
both Petitioner and Respondent. “1. Conditions,
other, Defendant must apply to the city of Apple
Valley for the required Fence permit & pay appli­
cable fees within 10 days from today. Defendant
shall include a land survey/drawing or whatever is
required by the City ofApple Valley within 60 days.
Defendant must allow city inspection of the fence
and defendant shall comply with all applicable
city codes regarding the fence. Upon compliance
with the applicable city codes with regard to the
fencing defendant is to be discharged from proba­
tion. 04/04/2016” (index 28). The original sentence
on April 4, 2016 (App. 46-50) does not state that
Petitioner must endure the unnecessary burden of
hiring a professional licensed engineer at his cost,
or to make the fence withstand an arbitrary 90 or
150 mile per hour wind speed. Also the wording of
the original sentence does NOT say comply with
all applicable State Building Codes but “applicable
city codes.” Petitioner should have been allowed to
withdraw his plea, and been given a Trial by Jury.
a.

A prime example of how the prosecutor and
the Court have erred in allowing an evolution
of the original sentencing order of April 4th
2016 (App. 46-50) is stated, THE COURT:
What exactly is required by the State Building
Code? What requirement are you talking
about? MS. CASSELLIUS: The stamped
drawing from a licensed engineer. THE
COURT: Any time a fence is being built? BY
MS. CASSELLIUS: Q. Mr. Dorn, is a stamped

30
drawing from a licensed engineer required any
time a fence is built in the City ofApple Valley1?
A. No. Q. When is it required? A. There’s a sec­
tion in the building code - and we have it in.
(indicating) one of our letters there - that al­
lows the building official to gather additional
documentation from architects and engineers
when the building official cannot determine
whether or not the fence, per se, would meet the
90 mile an-hour load. It’s required to be proven
to me that it will sustain that type of a wind
load and stay erect rather than blowing over.”
(lines 19-25, page 15, lines 1-12, page 16, Jan­
uary 25, 2018) There is no 90 miles per hour
wind load for a farm buildings fence structure
with no roof in the Minnesota Building Code,
chapter and verse please? Oh, there is for
buildings with roofs, is that what Mr. Dorn is
doing, creating misstatement without founda­
tion? Is Mr. Dorn taking things out of context
by creating a pre-text of falsehoods of fraud
upon the court? Mr. Dorn is then violating the
Minnesota State Building Code which Minne­
sota Statutes 326B.118 Subd. 2. (c) “A munici­
pality must not by ordinance, or through
development agreement, require building code
provisions regulating components or systems
of any structure that are different from any
provision of the State Building Code.” Where
Mr. Dorn in the Minnesota State Building
Code is the requirement that a farm fence
with no roof is required to withstand a 90-mile
per hour wind load? When no other farmer in
the State with a farm fence is required to do
so, that Mr. Dorn is a violation of the Equal

31
Protection clause in the 14th Amendment of
the United States Constitution.
b

The Court erred in accepting the testimony of
George Dorn, witness for the prosecutor, in
that Dorn specifically misrepresents the nor­
mal procedure of the City of Apple Valley
when it comes to fences, “Q. Do you typically
require a stamped drawing from a licensed en­
gineer for fences in the City of Apple Valley
that are over 6 feet high? A. Yes, we would. If
it’s a chain link fence, no. But if its something
of a solid material that will take on a wind
load, then yes.” (lines 11-16, page 17, January
25th, 2018). In the very same hearing, still
testifying, George Dorn states the complete
opposite is actually true, “BY THE DEFEND­
ANT: Q. Mr. Dorn, has the City ofApple Valley
in the last four years required anyone else to
hire an engineer specifically to inspect and
work on a fence? A. I’ve only been there three
years, so I couldn’t testify to four years. How­
ever, there’s no other fences that I can recall
that were installed that were 8 feet high, so I
couldn’t testify to that.” (lines 6-13, page 52,
January 25th, 2018) Mr. Dorn directly con­
tradicts himself by first stating that Apple
Valley’s normal procedure is to require an en­
gineer, and then states that Apple Valley ac­
tually has never required anyone other than
Petitioner to be subject to the unreasonable
requirement of hiring a professional engineer
to install a fence. Mr. Dorn’s testimony was
therefore unreliable and inaccurate, and
should not have been considered.

32

c.

The Trial court erred in allowing the prosecu­
tor to continue requiring a professional engi­
neer despite the testimony of Zachary Stadem
proving that the engineers in the actual field
stated themselves they could not even work
on a fence as there is no State Building Code
Guidelines to use to even make a report, “BY
THE DEFENDANT: Q. Okay, Mr. Stadem, did
you call some - were they certified engineers?
A. Yes. Q. Did you ask them to do a private in­
spection of the fence? A. Yes. Q. And when you
asked them that and they said “yes” what was
their did you inform them - did they ask you
what all it would be about? A. Well, that de­
pends on which person I talked to, but yes, gen­
erally most of them started right off the bat
saying normally - MS. CASSELLIUS: Objec­
tion, Hearsay. THE COURT: Overruled. You
can answer. A. Normally the engineers aren’t
hired very often for fences. BY THE DEFEND­
ANT: Q. did they give you any specific - any
specific answers to your - to your inquiry to do
this inspection? A. Yes. The reason that they
don’t generally do fences is because there is-I
was told that there is no specific part in the
State Building Code, which requires -for them
to be able to go off of to design a fence. There’s
a statute pertaining to walls, but nothing to do
with fences. Q. So did they mention walls to
you? A. Yes, they specifically said that there’s a
90-mile-per-hour wind load for walls, like re­
taining walls or outside walls of the house or
things like that, but their opinion was that it
does not apply - it cannot be applied to a fence
because a fence is not a wall. Q. So did they

33

say “no” to you then1?A, Yes, every one of them,
said “no” to me. There was only one that would
even consider it, but he told me that it would
cost in excess of $3,000 just to do the basics.
But then like I had said, after he looked
through the code, he told - he came back and
told me that he could not because there is noth­
ing for an engineer to go off of in the code, no
specifications for a fence. He would have to the only statute for 90-mile-an-hour wind re­
sistance has to do with walls, (lines 24-25,
page 57, lines 1-25, page 58, lines 1-11, page
59, January 25th 2018).
d.

The Trial Court erred in ignoring key witness
testimony of Zachary Stadem in relation to
Petitioner completing all requirements as­
signed to Petitioner; “BY THE DEFENDANT:
Q. Okay, Mr. Stadem, what all did we do to
comply with the order? A. We included a land
survey. I also included a drawing. And I - and
we had paid the permit fee. I believe that was
the only requirements, off the top of my head.”
(lines 6-11, page 60, January 25th 2018).

e.

The Trial Court erred in ultimately allowing
Petitioner’s Constitutional Rights under the
8th amendment be violated, which states “Ex­
cessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punish­
ments inflicted”, by the prosecutor, by allowing
Respondent to amplify the final punishment
and sentence; “Therefore, the State requests
that Mr. Rechtzigel be found in violation of
probation. The State is requesting that he be
required to submit a stamped drawing or

34
letter from a licensed engineer within 21 days
of today’s date. In the event Mr. Rechtzigel fails
to do so, the State requests that he report to
serve two days in jail ten days from the com­
pliance deadline.” (lines 2-8, page 64, January
25th 2018). Respondent first asks for 2 days of
jail time, but ultimately, at the hearing on
September 10th, 2018, (App. 26-36) Respond­
ent tells the Court that they want Petitioner
to serve 20 days in jail, ten times what Re­
spondent originally asked for on January
25th; “The Court had previously indicated that
its not going to extend probation anymore. The
maximum penalty is a 90-day sentence, $1,000
fine. While that is an attractive request for me
to make, I’m not going to make that, your
Honor, I’d like to request that he serve 20 days
in jail.” (lines 17-21, page 4, September 10th,
2018) (App. 26-36). By framing the 20 days as
a less severe punishment than 90 days in jail,
the prosecutor can appear to be “going easy”
on Petitioner, when in fact Respondent is mul­
tiplying the original sentence recommenda­
tion by a factor of 10, which is far more cruel
and unusual. Ultimately, the Court in fact
does sentence Petitioner to 20 days in jail, the
exact recommendation of Respondent, inflict­
ing an Unconstitutional, and severe burden
on Petitioner.
f.

The Trial Court erred in allowing the Re­
spondent to add the requirement of a profes­
sional engineer, despite stating “and I’m just
telling the City that a fence is a fence. A fence
in my mind is not a structural wall to protect
people sleeping behind. A fence is a fence.”

35

(lines 1-3, page 71, January 25th, 2018). The
Trial Court is correct in that there is nothing
in the Minnesota Building Code that states a
fence has to withstand a 90-mile-per-hour
wind, a fence is not a wall.
g.

The Trial Court erred in showing prejudice or
bias towards Petitioner by getting angry and
interrupting Petitioner when Petitioner was
only trying to understand what the Court was
telling him; “THE COURT: You don’t have 180
days. You did under the permit if you would
have gotten a permit to begin with before you
constructed the fence. You didn’t do that. You
went and constructed the fence. You violated
the ordinance. I found that you were in viola­
tion you violated the ordinance, you were
found guilty of that, and now The found that
you are in violation of your probationary sen­
tence. So we don’t have 180 days. I’m willing
to consider a few days. MR. RECHTZIGEL:
Your Honor - THE COURT: Don’t "Your Honor’
me, okay?”. Petitioner was simply trying to ask
the court a question and was immediately cut
off angrily by the Court, and told false infor­
mation about allegedly violating an ordinance
despite the fact that Petitioner has never ad­
mitted any wrongdoing by entering an Alford
Plea, as if the Court had already decided what
Petitioner was guilty of before even hearing
what Petitioner had to say.

h.

Minnesota Statutes 326B.121 Subdivision 1.
(c) “The State Building Code does not apply to
agricultural buildings.. . .”

36

i.

Minnesota State Building Code 1300.0120
PERMITS does not apply to agricultural
buildings and the farm fences that go
with the agricultural buildings. The Sub­
part 3, A. under 1300.0120 pertains only
for and to a commercial building and (2)
commercial fences.

ii.

Agricultural Buildings and their Agricul­
tural fences are exempt from the Minne­
sota State Building Code as stated in
Minnesota State Building Code 1300.0030
Subpart 2. A. “The State Building Code
does not apply to agricultural build­
ings. . . .”

iii. Petitioner has an Agricultural fence that
goes with the Agricultural buildings that
house farm machinery and farm animals
and grain.
iv. The Apple Valley prosecutor and Mr. Dorn
put fraud upon the trial court in this case
and matter.
v.

A Stop Work Order, 1300.0170, there is an
exception to the Stop Work Order, to re­
move an “unsafe condition.” The put­
ting up of Petitioner’s farm agricultural
fence removed an unsafe condition of not
securing the farm animals. Petitioner
should be praised and thanked by the
City of Apple Valley for providing privacy,
security, safety to the public welfare of
Apple Valley.

37
CONCLUSION
1.

A prayer of relief the sentencing orders be re­
versed.

2.

A prayer of relief that Petitioner be granted
$40,000.00 compensation for the Agricultural
Fence.

3.

A prayer of relief that a trial by jury be granted to
Petitioner.

4.

A prayer of relief that Minnesota State Building
Code does not reach Petitioner’s Agricultural
Fence.

5.

A prayer of relief that Petitioner be allowed to
build a wooden 8 foot Agricultural Fence for secu­
rity and safety of the farm operation and public
without a permit as stated in Minnesota Statutes
326B.121, Subdivision 1. (c).
Petitioner’s prayer is:

United States Supreme Court Reversed and Re­
manded the Court of Appeals of Minnesota and trial
court and grant the above relief of the conclusion and,
Accordingly, the United States Supreme Court
should review the decision of the Minnesota Court of
Appeals.
Respectfully submitted,
Dated: January 27,2020

Gene Rechtzigel
Pro Se
6533 160th Street West
Apple Valley, MN 55124
(612-618-0780)

